No. 19-764

 

 

IN THE

Supreme Court of the United States

MARK I. SOKOLOW, ET AL., PETITIONERS,

Vv.

PALESTINE LIBERATION ORGANIZATION
AND PALESTINIAN AUTHORITY

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 7, 2020.

 

Wilson-Epes Printing Co., Inc.
